CR-B-99-02




          AUDIT
         REPORT



                                 MANAGEMENT OF UNNEEDED
                                 MATERIALS AND CHEMICALS




                                           SEPTEMBER 1999




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                          September 30, 1999

MEMORANDUM FOR THE CHIEF FINANCIAL OFFICER

FROM:                    William S. Maharay /signed/
                         Manager, Capital Regional Audit Office
                         Office of Inspector General

SUBJECT:                 INFORMATION: Report on "Management of Unneeded Materials and
                         Chemicals"

BACKGROUND

For more than 50 years, the U.S. Department of Energy (Department) and its contractors operated
large production facilities and laboratories that acquired and produced directly or as by-products
enormous amounts of non-nuclear materials such as sodium, lead, chemicals, and scrap metal.
However, a mission change resulting from the end of the Cold War called into question the need for
continued stockpiling of these materials. In the past, the Department has conducted reviews that have
identified inefficiencies and recommended improvements to the materials management function. The
objective of this audit was to determine if the Department efficiently disposed of its unneeded
materials.

RESULTS OF AUDIT

The Department's needs to strengthen its management of unneeded materials and chemicals. Large
quantities of unneeded inventories existed at many contractor sites, and Departmental actions to sell or
reuse these items have been fragmented. This situation existed because the Department has not
assigned organizational responsibility and instituted an overall program to sell, reuse, or characterize as
waste its unneeded inventory. As a result, the Department may be missing disposition opportunities
that could result in savings or reduced costs. We recommended that the Deputy Secretary working
through the Chief Financial Officer assign responsibility and work with a designated Headquarters
organization to reduce the Department's unneeded materials and chemicals inventory to a level
commensurate with current mission requirements.

MANAGEMENT REACTION

Management agreed that there are opportunities to improve its asset disposition program and agreed in
principle with the recommendations included in the audit report.


Attachment
Management of Unneeded Materials and Chemicals


TABLE OF
CONTENTS




                  Overview

                  Introduction And Objective ..................................................................... 1

                  Conclusions And Observations ................................................................ 1


                  Management Of Unneeded Materials And Chemicals

                  Details Of Finding.................................................................................... 3

                  Recommendations And Comments .......................................................... 6


                  Appendices

                  1. Scope And Methodology .................................................................. 8

                  2. Prior Audit Reports........................................................................... 9
Overview

INTRODUCTION AND   For more than 50 years, the U.S. Department of Energy (Department) and
OBJECTIVE          its contractors operated large production facilities and numerous laboratories
                   that acquired and produced directly or as by-products enormous amounts of
                   materials and chemicals. The Department used these materials to research,
                   design, test, and manufacture nuclear weapons as well as for basic scientific
                   research. However, stockpiling such materials and chemicals has been
                   questioned because of the Department's mission change resulting from the
                   end of the Cold War.

                   In January 1996, the Department conducted a Materials in Inventory (MIN)
                   Initiative study to compile a "snapshot" of nuclear and non-nuclear material
                   and chemical inventories not planned for use within one year. These
                   materials and chemicals were considered unneeded or "Materials in
                   Inventory" and consisted of at least 900,000 tons located at 44 sites in 19
                   states. The MIN study indicated that "Materials in Inventory" exceeded
                   mission needs, inventory systems and organizational structures varied, and
                   safety issues existed relative to the storage of these materials. Additionally,
                   the study discussed disposition options including sale, reuse, and disposal as
                   waste, and it recommended actions to improve materials management
                   deficiencies.

                   The objective of this audit was to determine if the Department efficiently
                   disposed of its unneeded materials.

CONCLUSIONS AND
OBSERVATIONS       The Department needs to strengthen its management of unneeded materials
                   and chemicals. Large quantities of unneeded inventories existed at many
                   contractor locations, and the Department has not aggressively pursued the
                   disposition or reuse of these items. The Department's inventory consists of
                   significant quantities of scrap metal, lead, sodium, and chemicals. The
                   actions the Department has taken to dispose of or reuse these items have
                   been fragmented. Further, progress has been inhibited by the lack of policy,
                   assignment of organizational responsibility, and systems and resources to
                   manage the inventory.

                   To ameliorate this situation, the Department needs to assign overall
                   responsibility for the disposition or reuse of materials and chemicals to a
                   Headquarters organization. This organization would be responsible for
                   developing and implementing a program to efficiently manage and dispose of
                   unneeded inventory. Through these efforts, the Department could realize
                   savings and reduce costs.

Page 1                                                          Introduction And Objective/
                                                             Conclusions And Observations
         The conclusions of this report parallel that of a second audit on the
         Department's non-nuclear materials inventory at the Kansas City Plant. The
         results of that audit are discussed in Office of Inspector General (OIG)
         Report IG-0450. The second audit found that non-nuclear parts with an
         acquisition value of about $275 million had not been reviewed and approved
         for disposal, even though the Plant had made a preliminary determination that
         these parts were no longer needed.

         Management should consider the matters discussed in this report when
         preparing its yearend assurance memorandum on internal controls.


                                                 _______/S/____________
                                                 Office of Inspector General




Page 2                                               Introduction And Objective/
                                                  Conclusions And Observations
Management Of Unneeded Materials And Chemicals

Unneeded Materials   The Department retains large quantities of unneeded materials and chemicals.
And Chemicals        In addition, actions to dispose of unneeded inventory have been fragmented,
                     and Departmental entities have not taken full advantage of opportunities to
                     reuse these materials.

                                                     Materials Quantities

                     The 1996 MIN Initiative identified materials and chemicals at 33
                     Departmental sites that exceeded mission requirements. Since 1996, field
                     activities have taken some actions to dispose of its unneeded inventory. 1
                     However, work conducted as a part of this audit indicated that the
                     Department still had substantial quantities remaining. Table 1 compares
                     estimated unneeded inventory for seven sites between 1996 and 1998.

                                Table 1: Estimated Unneeded Materials and Chemicals2

                                                                  1996               1998

                              Scrap Metal (tons)                 58,718              57,982
                              Lead (lbs.)                    3,831,779            1,006,725
                              Sodium (gal.)                    110,204               62,233
                              Chemicals (gal.)                 220,000               40,000
                              Chemicals (lbs.)               5,984,187            4,524,000


                     At the time of the MIN study, the market value of unneeded materials and
                     chemicals Departmentwide was estimated to be about $94 million. This
                     1996 value would be reduced by any preparation costs associated with
                     disposition. Sometimes these disposition costs can be significant.

                     ______________________________
                     1
                       Most of the field sites visited had ongoing scrap metal sales programs that were not
                     reflected in the MIN Initiative because the metals remain in inventory for only a very
                     short time. These programs sell metals from facilities operations and/or
                     decommissioning efforts at public auctions or through negotiated contracts. As an
                     example, the Fermi National Accelerator Laboratory sold about 1,152 tons of scrap
                     metal in FY 1998 for a revenue of $251,887. In addition, the Department has established
                     a National Center of Excellence for Metals Recycle at Oak Ridge. The Center reported
                     substantial progress in the sale and reuse of scrap metal.
                     2
                       The estimated inventory balances relate to the Hanford Site; Pacific Northwest,
                     Argonne, and Oak Ridge National Laboratories; Fermi National Accelerator
                     Laboratory; Y-12 Plant; and East Tennessee Technology Park.




Page 3                                                                              Details Of Finding
                                                        Disposition Actions

                         Field sites have adopted different approaches to the management of
                         unneeded materials and chemicals, and they have incurred differing costs in
                         the disposition of these items. To illustrate, three sites were in the process of
                         disposing non-radioactive sodium at different costs per gallon. In 1997, the
                         Hanford site sold approximately 48,000 gallons of sodium, at a net cost of
                         about $1 million3 , or $21 per gallon. In contrast, the Oak Ridge National
                         Laboratory proposed to convert 14,369 gallons of unneeded sodium into
                         sodium hydroxide for use in its wastewater treatment process. It was
                         projected that this would result in a net cost of about $1.4 million, or about
                         $100 per gallon. Further, the Argonne National Laboratory was in the
                         process of shipping 1,675 gallons of sodium to a commercial firm. The net
                         cost of disposition was $175,266, or about $105 per gallon.

                         Departmental activities, in addition, did not fully maximize the use of systems
                         and processes to reuse unneeded items. For example, at the Argonne
                         National Laboratory an automated system for managing chemicals, dubbed
                         "ACES" was developed and used by one division. The intent of the system
                         was to save research funds and reduce the facility's chemicals inventory by
                         centrally storing surplus chemicals and offering them for reuse. Despite
                         demonstrated cost savings, appropriate managerial support was not obtained
                         for site-wide implementation. In another example, an Office of Science
                         official developed a Departmentwide web-site called the Exchange. The
                         purposes of the site were to promote reuse of materials, facilitate their
                         exchange, reduce acquisition time, and save resources. Although this effort
                         resulted in a White House Environmental Award, the Department did not
                         institutionalize site participation in the Exchange program.



Department Regulations   The Department's Property Management Regulations (41 CFR Chapter
Require Maximum Use Of   109) establish standards and practices for personal property management.
Property                 Materials and chemicals are covered by these regulations. Subpart 109-
                         1.5102 requires that management ensure the best possible use of personal
                         property. Additionally, it requires property be limited to those items essential
                         for efficiently carrying out the Department's programs.

                         ______________________________
                         3
                           Although Hanford realized proceeds from the sale, preparation costs exceeded those
                         proceeds.




Page 4                                                                                 Details Of Finding
Barriers Remain To      The Department retained large quantities of materials and chemicals, in part,
Efficient Disposition   because no one organization was assigned overall responsibility to develop
                        and institutionalize a materials and chemicals disposition program. As a
                        result, detailed policy guidance was not approved and
                        implemented, Departmentwide systems were not established to
                        identify and track unneeded inventory balances, and adequate
                        resources were not devoted to materials management and disposition.
                        In 1996, the Office of Field Management drafted a policy to require the
                        economic disposition of unneeded physical property and encourage reuse
                        within the Department. This draft policy was never formally adopted and
                        implemented. Also, Departmentwide systems to track material balances did
                        not exist.

                        Generally, such materials were expensed when purchased. Inventory
                        information was limited and could only be obtained through labor-intensive,
                        one-time collection efforts. As a consequence, we noted that the Office of
                        Science official responsible for laboratory infrastructure was not aware that
                        the Argonne National Laboratory was maintaining unneeded lead in a central
                        storage facility. Past reviews of the Department's inventory management
                        practices have mentioned the need for improved information systems.

                        Similarly, budgetary constraints and crosscutting organization responsibility
                        impeded effective disposition of unneeded inventory. To illustrate, the
                        former Office of Field Management in September of 1998 solicited
                        proposals from field offices for actions that could result in returns on
                        investments in property disposition and reduce the Department's health and
                        safety exposure. The field responded with 42 projects and the Department
                        selected 13. However, these projects were not funded because of "overall
                        shortfalls and the fact that the effort would have been a newly started
                        program." Organizational and funding responsibilities were also fragmented.
                        As an example, costs associated with warehousing the sodium at the
                        Hanford facility were funded by the Office of Environmental Management at
                        Headquarters; however, decisions relating to management of the sodium
                        were the responsibility of the Office of Nuclear Energy.

                        Past reviews have advocated the implementation of policy and information
                        systems to reuse unneeded materials and chemicals throughout the
                        Department. However, a detailed plan with clear goals and benchmarks has
                        not been developed. Such a plan would have aided the disposition of
                        unneeded quantities in the Department and would be


Page 5                                                                          Details Of Finding
                          consistent with the objectives of the Government Performance and Result
                          Act of 1993. This Act requires managers to establish goals and performance
                          measures for program activities.

                          A recent change to the Department's organization structure is a positive step
                          that may aid efforts to resolve this issue. On April 21, 1999, the Secretary
                          announced changes to the Department's overall management structure. The
                          intention was to clarify roles and responsibilities, lines of authority and
                          accountability, and establish a Field Management Council. The Council
                          would be charged with integrating both corporate programs and support
                          activities with line programs. The Secretary noted that all staff and support
                          office policy and guidance that impacts the field will flow through the Council,
                          and newly formed Lead Program
                          Secretarial Offices would be responsible and accountable for proper
                          implementation at field sites for which they are assigned.

Opportunities Exist To
More Effectively Manage   The Department has an opportunity to reduce costs by disposing unneeded
Materials And Chemicals   materials and chemicals. Data provided by the field sites reviewed indicated
                          that one-time and recurring savings could be achieved. Additional savings
                          opportunities may be possible for other sites.

                          One-time net savings are possible through Departmentwide sale of the
                          uncontaminated sodium inventory. However, additional analysis and site
                          coordination may be necessary to determine the most cost-effective
                          disposition option. The adoption of the ACES system at Argonne is another
                          reuse strategy that could result in a one-time savings of $100,000. Recurring
                          annual savings would be possible through the reduction of storage costs for
                          unneeded inventories. For example, the Department pays almost $500,000
                          each year to store and maintain 4,589 gallons of unneeded non-radioactive
                          sodium at Hanford.

                          Exact quantification of future savings is difficult, but the overall efficiency and
                          economy of Departmental operations would be improved if Headquarters
                          responsibility was assigned and resources were provided to facilitate the
                          disposition of unneeded inventories.
RECOMMENDATIONS
                          We recommend that the Deputy Secretary working through the Chief
                          Financial Officer assign a Headquarters organization responsibility and
                          resources to facilitate the disposition of unneeded materials and chemical
                          inventories across the Departmental complex.

Page 6                                                                                 Details Of Finding
             We also recommend that the designated organization develop and implement
             a Departmentwide disposition program. This program should include at a
             minimum:

             1. policy that outlines procedures for and requires efficient maintenance and
                disposition of unneeded materials and chemicals;

             2. a long-range strategy consistent with GPRA that includes goals,
                performance measures, and milestones for key program activities and
                actions to address recommendations made in prior reviews;

             3. a funding plan for implementing the objective of the program; and

             4. a mechanism that identifies the value and quantity of unneeded materials
                and chemicals on-hand at Departmental sites.

MANAGEMENT
REACTION     The Office of Chief Financial Officer in responding to the draft report stated
             that there are opportunities to improve the management of the Department's
             excess assets. This office indicated that in the past year, the Department had
             refocused its efforts to encourage contractors to pursue excess assets sales
             and disposal projects. It also proposed a series of actions to strengthen the
             Department's disposition program that parallel the recommendations included
             in this report. These actions included advising the Deputy Secretary of the
             need for assigning management responsibility for the disposition programs
             and taking steps to establish policy and operational activities to reduce the
             inventory of unneeded materials and chemicals.


AUDITOR      The actions that management proposed are responsive to the audit
COMMENTS     recommendations. However, a detailed action plan will need to be
             developed to ensure successful disposition of unneeded materials and
             chemicals.




Page 7                                           Recommendations And Comments
Appendix 1

SCOPE         The audit was performed from August 1998 through April 1999 at
              Headquarters; the Hanford site; Pacific Northwest, Argonne, and Oak Ridge
              National Laboratories; Fermi National Accelerator Laboratory;
              Y-12 Plant; and East Tennessee Technology Park.


METHODOLOGY   To accomplish the audit objective, we:

              •   Reviewed Federal and Departmental regulations and local operating
                  policies and procedures relating to the management and disposition of
                  unneeded non-nuclear materials;

              •   Determined through discussions and review of documentation whether
                  recommendations from prior reviews were implemented;

              •   Determined what types of materials existed and the management
                  practices associated with the materials;

              •   Determined the extent of coordination with field personnel on
                  management and disposition of materials;

              •   Held discussions with field officials to determine management and
                  storage costs;

              •   Determined what efforts to reuse materials existed in the Department;
                  and

              •   Determined if field sites were performing cost-benefit analyses to
                  evaluate disposition alternatives and whether the Department is
                  requesting the necessary funding to complete the alternatives.

              The audit was performed in accordance with generally accepted Government
              auditing standards for performance audits and included tests of internal
              controls and compliance with laws and regulations to the extent necessary to
              satisfy the audit objective. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may have
              existed at the time of our audit. We did not rely on computer-processed
              data. A meeting was held with Headquarters officials on July 28, 1999, to
              discuss the report's finding and recommendations.



Page 8                                                         Scope And Methodology
Appendix 2

                                SELECTED EXAMPLES OF PRIOR
                          AUDIT REPORTS ON PROPERTY MANAGEMENT


Audit of Fuel Processing Restoration Property
DOE/IG-WR-B-96-04, October 20, 1995

The Department and its contractors did not completely and accurately account for $54 million of property and
promptly redistribute or appropriately excess the property. A significant amount of property was not accounted for
in the Department's approved property management system. In addition, over 2,700 stock items had neither been
identified for redistribution nor excessed.

Audit of the Department of Energy's Management of Precious Metals
DOE/IG-0375, June 20, 1995

The Department had not developed an effective method for disposing of $10.3 million of existing excess precious
metals. This disposal problem will be compounded in the future when $36 million of additional precious metals are
recovered from dismantled nuclear weapons. Retention of excess metals occurred because the Department did not
consider precious metals management a high priority.

Summary Report on the Department of Energy's Management of Personal Property
DOE/IG-0344, March 1, 1994

This report summarized the results of 26 previous OIG reports dealing with personal property. Key issues include
the following: (1) the Department was vulnerable to significant future losses as facilities consolidate, missions
change, and more property becomes excess to the Department's current needs; (2) property inventory records
were not sufficient to identify the types, quantities, location, and cost of personal property inventories; (3)
contractors were not properly identifying, storing, and disposing of excess personal property; and (4) contractor
property management systems were not reviewed and approved in a timely manner.

Department of Energy Management of Excess Property
General Accounting Office, GAO/RCED-99-3, November 4, 1998

The Department of Energy's property records did not consistently provide information that would help identify
property that is no longer needed. The Department acknowledged problems with its identification and disposal of
excess real and personal property. Department officials cited, for example, a lack of funding for the environmental
cleanup of the current inventory of excess real property and a lack of incentives to identify property as excess.
Because the costs associated with the maintenance and storage of unneeded property were generally not separately
identified, little incentive existed to spend the resources necessary to dispose of it.



Page 9                                                                                      Prior Audit Reports
                                                                                     IG Report No. CR-B-99-02
                                     CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We wish to
make our reports as responsive as possible to our customers' requirements, and, therefore, ask that you consider
sharing your thoughts with us. On the back of this form, you may suggest improvements to enhance the
effectiveness of future reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the audit
   would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this report to
   assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more clear to
   the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this report
   which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions about
your comments.

Name _____________________________               Date __________________________

Telephone _________________________              Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                        Office of Inspector General (IG-1)
                                              Department of Energy
                                             Washington, DC 20585

                                           ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586-1924.
 The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available     electronically through the
                            Internet at the following alternative addresses:


             U.S. Department of Energy Management and Administration Home Page
                                   http://www.hr.doe.gov/ig
                                              or
                                    http://www.ma.doe.gov


                Your comments would be appreciated and can be provided on the
                       Customer Response Form attached to the report.
